                    September 27, 1999

                    WILLIAM H. MCCOMB
                    VICE PRESIDENT, MIDWEST AREA OPERATIONS

                    SUBJECT: Allegation of a Hostile Working Environment at
                             a Midwest Area Post Office
                             (Report Number LM-LA-99-002)

                    This is our advisory report on an allegation that a hostile
                    working environment existed at the Minneapolis, Minnesota
                    Post Office in the Midwest Area. The report also discusses
                    our review of the Minneapolis management’s compliance
                    with United States Postal Service (USPS) policies and
                    procedures for investigating and resolving the allegation.

                    A Minneapolis Post Office employee (complainant)
                    submitted a complaint to the Office of Inspector General
                    (OIG) Hotline, requesting that we review the harassment
                    and intimidation of employees by another employee working
                    at the Post Office (Project Number 99EF074LM000). Our
                    objectives were to determine whether: (1) a hostile
                    environment existed, and (2) management responded in
                    accordance with established policies and procedures.

Results in Brief	   We determined there was a perception that a hostile
                    working environment existed. The complainant told us that
                    another employee was harassing and intimidating him and
                    other employees by wearing a tattoo on his elbow. The
                    complainant told us that the tattoo signified that the wearer
                    had committed an act of violence.

                    The complainant reported the issue to the Lead Plant
                    Manager who conducted an investigation. However, the
                    complainant told us that he may have over-reacted when he
                    made a complaint to the OIG Hotline, and that he was
                    satisfied with the way his supervisor and the Lead Plant
                    Manager have handled his complaint.




                            Restricted Information
Allegation of a Hostile Working Environment at a                                   LM-LA-99-002
 Midwest Area Post Office


                                We also determined that Minneapolis management followed
                                the USPS published zero tolerance policy regarding
                                violence and inappropriate behavior in the workplace. The
                                complainant reported the incident to the Lead Plant
                                Manager, and an investigation was conducted. The Lead
                                Plant Manager took the proper actions, including a
                                recommendation that the complainant seek counseling
                                through the Employee Assistance Program.

                                We have no suggestions and plan no further work on this
                                allegation. We discussed the contents of this report with
                                management and they had no comments.

 Objective, Scope, and          In a hotline complaint to the OIG, dated July 23, 1999, the
 Methodology                    complainant reported the existence of a hostile working
                                environment at the Minneapolis, Minnesota Post Office.
                                The complainant told us that another employee was
                                harassing and intimidating black employees by wearing a
                                tattoo that they (the black employees) found offensive. The
                                employee said he was “afraid of what he himself might do”
                                in reaction to the harassment.

                                The OIG normally does not review individual labor-
                                management disputes, particularly when other formal
                                avenues of resolution exist, including contractual grievance-
                                arbitration procedures and the Equal Employment
                                Opportunity process. However, we will undertake such
                                reviews when the allegations pertain to violence in the
                                workplace.

                                Our objectives were to determine whether: (1) a hostile
                                environment existed, and (2) management responded in
                                accordance with established policies and procedures.

                                We interviewed the complainant and the Lead Plant
                                Manager. We also reviewed the hotline complaint, the
                                USPS Joint Statement on Violence and Behavior in the
                                Workplace, the Threat Assessment Team Guide
                                (Publication 108), and the Employee and Labor Relations
                                Manual, Section 870, Employee Assistance Program.

                                This review was conducted from August through September
                                1999 in accordance with the President’s Council on Integrity
                                and Efficiency, Quality Standards for Inspections.




                                                     2
                                          Restricted Information
Allegation of a Hostile Working Environment at a                                  LM-LA-99-002
 Midwest Area Post Office




 Observations 	                 We determined there was a perception that a hostile
                                working environment existed. We also determined that
                                Minneapolis management followed the USPS zero tolerance
                                policy regarding violence and inappropriate behavior in the
                                workplace.

 Allegation of a                In a July 1999 hotline complaint to the OIG, the complainant
 Hostile Working                alleged that another employee was harassing and
 Environment                    intimidating him and other black employees, thereby
                                creating a hostile working environment. Specifically, the
                                complainant stated that the employee had a spider tattoo on
                                his elbow. The complainant told us that the spider
                                “indicates” that the wearer of the tattoo has committed an
                                act of violence against a black person.

                                In the hotline complaint, the complainant said he reported
                                the issue to the Lead Plant Manager, who was investigating
                                the matter. However, the complainant did not believe that
                                he was taken seriously. The complainant said that he (the
                                complainant) was “afraid of what he himself might do” in
                                reaction to the employee wearing the tattoo. He said that
                                his fear is based on a personal experience that happened to
                                one of his family members.

                                The complainant later told us that he may have “over-
                                reacted” when he made the hotline complaint. He said that
                                he has known the employee wearing the tattoo for 12 years
                                and during that time the employee had never given him
                                reason to believe that he might be associated with a racist
                                group. The complainant said that he received his
                                information about the meaning of the tattoo from a TV
                                documentary. He believes that his over-reaction may have
                                been based on his viewing of the TV documentary coupled
                                with some personal experiences.

 USPS Response to               The Joint Statement on Violence and Behavior in the
 Alleged Physical               Workplace states that the Postal Service will not tolerate
 Threat                         violence or any threats of violence by anyone at any level of
                                the Postal Service. In addition, the USPS Threat
                                Assessment Team Guide (Publication 108), requires that
                                when an incident occurs, notification be made to the Human
                                Resources Manager, the Inspection Service, Senior Labor
                                Relations Specialist, Employee and Workplace Intervention
                                Analyst, Medical Director, District Manager, or Lead Plant
                                Manager. The Guide further provides that the Human

                                                     3
                                          Restricted Information
Allegation of a Hostile Working Environment at a                                                        LM-LA-99-002
 Midwest Area Post Office


                                    Resources Manager or designee will determine whether a
                                    meeting needs to be called or whether the situation may be
                                    addressed through other Threat Assessment Team
                                    members or ad hoc resources.

                                    In this case, the complainant reported the incident directly to
                                    the Lead Plant Manager. The Lead Plant Manager
                                    conducted an investigation and concluded that the situation
                                    was resolved and that all parties involved had come to an
                                    understanding. The complainant confirmed that the matter
                                    had been settled to his satisfaction, and that he had no
                                    other concerns.

                                    The Lead Plant Manager told us that based on this situation
                                    and other personal issues concerning the complainant, he
                                    was going to recommend that the complainant speak with
                                    an Employee Assistance Program1 counselor.

                                    We have no suggestions and plan no further work on this
                                    allegation.

    Management’s                    We discussed the contents of this report with management.
    Comments                        They had no comments.

                                    We appreciated the cooperation and courtesies provided by
                                    your staff during the review. If you have any questions,
                                    please contact me at (703) 248-2300.



                                    Billy Sauls
                                    Assistant Inspector General
                                      for Employee

                                    cc: 	 Clarence E. Lewis, Jr.
                                          Anthony J. Vegliante
                                          Yvonne D. Maguire
                                          Wayne D. Rogers
                                          Alan B. Kiel
                                          John R. Gunnels




1
 The Employee Assistance Program is a formal, non-disciplinary program designed to assist employees in dealing
with personal problems that may adversely affect an employee’s job performance and personal life. Assistance is
provided through consultation, evaluation, counseling, and/or referral to community resources and treatment facilities.

                                                          4
                                               Restricted Information
Allegation of a Hostile Working Environment at a                   LM-LA-99-002
 Midwest Area Post Office


 Major Contributors to
 This Report




                                                     5
                                          Restricted Information
